                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-00305-123




     Combined Assessment Program 

            Review of the 

           Southern Arizona 

        VA Health Care System 

           Tucson, Arizona 





April 14, 2014

                       Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



                                              Glossary
                 CAP            Combined Assessment Program
                 CBOC           community based outpatient clinic
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Southern Arizona VA Health Care System
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PRC            Peer Review Committee
                 QM             quality management
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                       CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              28

  F. Report Distribution .............................................................................................            29

  G. Endnotes ...........................................................................................................         30





VA OIG Office of Healthcare Inspections
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
January 6, 2014.

Review Results: The review covered seven activities.                    The facility’s reported
accomplishment was outpatient phlebotomy wait times.

Recommendations: We made recommendations in all seven of the following
activities:

Quality Management: Perform continuing stay reviews on at least 75 percent of patients
in acute beds. Ensure that the Surgical Work Group meets monthly and that all surgical
deaths are reviewed.

Environment of Care: Require that patient care areas in the community living center are
clean and that damaged walls in the community living center are repaired and
maintained. Ensure all workers who occasionally access the acute mental health unit
receive the required training.

Medication Management: Conduct and document patient learning assessments.
Ensure clinicians conducting medication education accommodate identified learning
barriers and document the accommodations made to address those barriers.

Coordination of Care: Identify post-discharge needs, and include them in discharge
planning.    Ensure patients receive ordered aftercare services within the
ordered/expected timeframe.

Nurse Staffing: Monitor the staffing methodology that was implemented in May 2013.
Ensure members of the facility and unit-based expert panels receive the required
training prior to the next annual staffing plan reassessment.

Pressure Ulcer Prevention and Management: Perform and document a patient skin
inspection and risk scale at discharge. Accurately document location, stage, risk scale
score, and date pressure ulcer acquired for all patients with pressure ulcers. Revise the
prevention plans if risk levels change for patients at risk for or with pressure ulcers.
Ensure all patients discharged with pressure ulcers have wound care follow-up plans
and receive dressing supplies prior to being discharged. Provide and document
pressure ulcer education for patients at risk for and with pressure ulcers and/or their
caregivers. Ensure designated employees receive training on how to administer the
pressure ulcer risk scale and how to conduct a complete skin assessment.

Community Living Center Resident Independence and Dignity: Document weekly
summaries of restorative nursing services in residents’ electronic health records.



VA OIG Office of Healthcare Inspections                                                          i
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–27, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
January 6, 2014, and was done in accordance with OIG standard operating procedures
for CAP reviews.     We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                         1
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Southern Arizona VA Health Care System, Tucson, Arizona,
Report No. 10-02124-232, August 25, 2010).

During this review, we presented crime awareness briefings for 299 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
298 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Outpatient Phlebotomy Wait Times
Over the past 5 years, the average number of veterans served daily by the outpatient
phlebotomy team at the facility has almost doubled. This increase gradually caused
longer waiting times. In July 2012, wait times often exceeded an hour. As a result,
veteran satisfaction began to decline significantly.

The outpatient phlebotomy team implemented a new process with a coordinator and
reorganization of the work area, eliminating the two-step waiting process. The
coordinator sets the pace between blood draws while the phlebotomist sets the pace for
time spent with the veteran.
As a result of the new process, veteran wait times were reduced from an average of
73 minutes in FY 2012 to less than 10 minutes in FY 2013. As the wait times for
veterans dropped, satisfaction scores soared. Small changes continue to be made by
phlebotomy staff and laboratory management to sustain and improve patient care in the
outpatient phlebotomy area. This will continue to be an ongoing process for the near
future. VISN 18 recognized this as a best practice.




VA OIG Office of Healthcare Inspections                                                         2
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                          Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                     3
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


NM             Areas Reviewed (continued)                                      Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
 X     Staff performed continuing stay reviews on at        Twelve months of continuing stay data reviewed:
       least 75 percent of patients in acute beds.           For all 12 months, less than 75 percent of
                                                              acute inpatients were reviewed.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted:
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected              The Surgical Work Group only met two times
       requirements:                                          over the past 6 months.
        An interdisciplinary committee with
                                                            Several surgical deaths occurred from April
          appropriate leadership and clinical
                                                            through September 2013:
          membership met monthly to review surgical
                                                             There was no evidence that any of the deaths
          processes and outcomes.
                                                               were reviewed.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                     4
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


NM              Areas Reviewed (continued)                                     Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that continuing stay reviews
are performed on at least 75 percent of patients in acute beds.

2.   We recommended that the Surgical Work Group meet monthly.

3. We recommended that processes be strengthened to ensure that all surgical deaths are
reviewed.




VA OIG Office of Healthcare Inspections                                                                     5
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected seven inpatient areas (2S, 3E, 3N, the CLC, the intensive care unit, the
step-down unit, and the acute MH unit), the emergency department, two outpatient clinics, and
the radiology department. Additionally, we reviewed relevant documents, conversed with key
employees and managers, and reviewed 30 employee training records (10 radiology
employees, 10 acute MH unit employees, 5 Multidisciplinary Safety Inspection Team members,
and 5 employees who occasionally access the acute MH unit). The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                   Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.          In the CLC:
                                                             Ten patient bathroom floors were in need of
                                                               deep cleaning.
                                                             Five patient rooms had walls behind the beds
                                                               that were in need of repair. Two had large
                                                               holes, and three were damaged.
                                                             Hallway floors in the locked dementia area
                                                               were in need of cleaning.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                      6
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


NM             Areas Reviewed for Radiology                                    Findings
       The facility had a Radiation Safety Committee,
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
       Environmental safety requirements in x-ray
       and fluoroscopy were met.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.




VA OIG Office of Healthcare Inspections                                                                     7
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


NM      Areas Reviewed for Acute MH (continued)                                Findings
 X     MH unit staff, Multidisciplinary Safety               Two employees who occasionally accessed
       Inspection Team members, and occasional                the acute MH unit had not completed training
       unit workers received training on how to               on how to identify and correct environmental
       identify and correct environmental hazards,            hazards, proper use of the MH EOC
       content and proper use of the MH EOC                   Checklist, and VA’s National Center for
       Checklist and VA’s National Center for Patient         Patient Safety study of suicide on psychiatric
       Safety study of suicide on psychiatric units.          units.
       The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendations

4. We recommended that processes be strengthened to ensure that patient care areas in the
CLC are clean and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that walls in the CLC are
repaired and maintained.

6. We recommended that processes be strengthened to ensure that all workers who
occasionally access the acute MH receive training on how to identify and correct environmental
hazards, proper use of the MH EOC Checklist, and VA’s National Center for Patient Safety
study of suicide on psychiatric units and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                        8
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly selected inpatients discharged on
1 of 3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
 X     Clinicians conducted inpatient learning              Four patients (12 percent) did not have
       assessments within 24 hours of admission or           documented learning assessments.
       earlier if required by local policy.
 X     If learning barriers were identified as part of       For 3 of the 18 patients with identified
       the learning assessment, medication                    learning barriers, EHR documentation did not
       counseling was adjusted to accommodate the             reflect medication counseling accommodation
       barrier(s).                                            to address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that processes be strengthened to ensure that patient learning
assessments are conducted and documented and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                     9
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 29 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                   Areas Reviewed                                            Findings
 X    Patients’ post-discharge needs were identified,        Three of the applicable eight EHRs did not
      and discharge planning addressed the                    contain documentation that clinicians
      identified needs.                                       addressed post-discharge needs related to
                                                              prosthetics.
      Clinicians provided discharge instructions to
      patients and/or caregivers and validated their
      understanding.
 X    Patients received the ordered aftercare                Nine of 27 patients who had services ordered
      services and/or items within the                        did not receive them within the
      ordered/expected timeframe.                             ordered/expected timeframe.
      Patients’ and/or caregivers’ knowledge and
      learning abilities were assessed during the
      inpatient stay.
      The facility complied with any additional
      elements required by VHA or local policy.

Recommendations

9. We recommended that processes be strengthened to ensure that clinicians identify
post-discharge needs and include them in discharge planning.

10. We recommended that processes be strengthened to ensure that patients receive ordered
aftercare services within the ordered/expected timeframe.




VA OIG Office of Healthcare Inspections                                                                    10
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, long-term care, and MH).5

We reviewed facility and unit-based expert panel documents and 39 training files, and we
conversed with key employees. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
 X     The facility either implemented or reassessed         Initial implementation was not completed until
       a nurse staffing methodology within the                May 20, 2013.
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
 X     Members of the expert panels completed the            Twenty of the 21 members of the unit-based
       required training.                                     expert panels had not completed the required
                                                              training.
                                                             Fifteen of the 18 members of the facility
                                                              expert panel had not completed the required
                                                              training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that nursing managers monitor the staffing methodology that was
implemented in May 2013.

12. We recommended that all members of the facility and unit-based expert panels receive the
required training prior to the next annual staffing plan reassessment.




VA OIG Office of Healthcare Inspections                                                                    11
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 26 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
6 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected four patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                          Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were                 Five of the applicable 18 EHRs did not
       performed upon transfer, change in condition,          contain documentation that a skin inspection
       and discharge.                                         and risk scale were performed at discharge.
 X     Staff were generally consistent in                    In 16 of the 26 EHRs, staff did not
       documenting location, stage, risk scale score,         consistently document the location, stage, risk
       and date acquired.                                     scale score, and/or date acquired.
 X     Required activities were performed for                Three of the applicable 23 EHRs did not
       patients determined to be at risk for pressure          contain consistent documentation that staff
       ulcers and for patients with pressure ulcers.           revised the prevention plan if the risk level
                                                               changed.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed        Two of the applicable six EHRs did not
       at discharge, a wound care follow-up plan was          contain evidence of wound care follow-up
       documented, and the patient was provided               plans at discharge or of patient receipt of
       appropriate dressing supplies.                         dressing supplies prior to discharge.




VA OIG Office of Healthcare Inspections                                                                     12
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


NM             Areas Reviewed (continued)                                        Findings
 X     The facility defined requirements for patient        Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and          education requirements reviewed:
       education on pressure ulcer prevention and            For 6 of the applicable 20 patients at risk
       development was provided to those at risk for           for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their                   contain evidence that education was
       caregivers.                                             provided.
 X     The facility defined requirements for staff          Facility pressure ulcer staff education
       pressure ulcer education, and acute care staff       requirements reviewed:
       received training on how to administer the            Three employee training records did not
       pressure ulcer risk scale, conduct the                 contain evidence of how to administer the
       complete skin assessment, and accurately               pressure ulcer risk scale and how to conduct
       document findings.                                     a complete skin assessment.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

13. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale at discharge and that compliance be
monitored.

14. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

15. We recommended that processes be strengthened to ensure that acute care staff revise the
prevention plans if risk levels change for patients at risk for or with pressure ulcers and that
compliance be monitored.

16. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.

17. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.

18. We recommended that processes be strengthened to ensure that designated employees
receive training on how to administer the pressure ulcer risk scale and how to conduct a
complete skin assessment and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                    13
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 10 EHRs of residents (9 residents receiving restorative nursing services and
1 resident not receiving restorative nursing services but a candidate for services). We also
observed 1 resident during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                         Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
       Training and competency assessment were
       completed for staff who performed restorative
       nursing services.
 X     The facility complied with any additional            Facility policy on
       elements required by VHA or local policy.            Rehabilitative/Restorative/Supportive Nursing
                                                            Care Program reviewed:
                                                             Two of the applicable nine residents did not
                                                              have a weekly restorative nursing summary
                                                              documented in the EHR.




VA OIG Office of Healthcare Inspections                                                                      14
                                          CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


NM         Areas Reviewed for Assistive Eating                                   Findings
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

19. We recommended that processes be strengthened to ensure that staff document weekly
summaries of restorative nursing services in residents’ EHRs.




VA OIG Office of Healthcare Inspections                                                                    15
                                    CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                            Appendix A


                 Facility Profile (Tucson/678) FY 2014 through
                                  February 2014a
Type of Organization                                                               Tertiary
Complexity Level                                                                   1a-High complexity
Affiliated/Non-Affiliated                                                          Affiliated
Total Medical Care Budget in Millions                                              $429.1
Number of:
    Unique Patients                                                               41,772
    Outpatient Visits                                                             274,715
    Unique Employeesb                                                             1,880
Type and Number of Operating Beds (December 2013):
    Hospital                                                                      171
    CLC                                                                           90
    MH                                                                            16
Average Daily Census (January 2014):
    Hospital                                                                      147
    CLC                                                                           61
    MH                                                                            13
Number of CBOCs                                                                    7
Location(s)/Station Number(s)                                                      Sierra Vista/678GA
                                                                                   Yuma/678GB
                                                                                   Casa Grande/678GC
                                                                                   Safford/678GD
                                                                                   Green Valley/678GE
                                                                                   Northwest CBOC/678GF
                                                                                   Southeast CBOC/678GG
VISN Number                                                                        18




a
    All data is for FY 2014 through February 2014 except where noted.

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                               CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                                                       Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                         17
                                                     CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                               18
                                                                                                CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


                                                                         Metric Definitions
 Measure                       Definition                                                                            Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)     A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                               A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                            A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                  A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                           A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)        A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                         A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                     A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                  A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                        A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                  A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)     A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)              A higher value is better than a lower value
 PSI                           Patient safety indicator                                                              A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                      A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                        A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction               A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                  A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                 A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction             A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure                A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                               A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                   A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                        A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                            19
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                      Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       March 25, 2014

          From:        Director, VA Southwest Health Care Network (10N18)

       Subject:        CAP Review of the Southern Arizona VA Health Care
                       System, Tucson, AZ

             To:       Director, San Diego Office of Healthcare Inspections (54SD)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I concur with the attached facility responses and action plans detailed
          in this report of the Combined Assessment Program Review of the
          Southern Arizona VA Health Care System (SAVAHCS).

       2. If y	 ou have additional questions or concerns, please contact
          Robert Baum, VISN 18 Executive Officer to the Network Director, at
          (480) 397-2777.




VA OIG Office of Healthcare Inspections                                                        20
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                      Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       March 24, 2014

          From:        Director, Southern Arizona VA Health Care System (678/00)

       Subject:        CAP Review of the Southern Arizona VA Health Care
                       System, Tucson, AZ

             To:       Director, VA Southwest Health Care Network (10N18)

       1. I concur with the findings and recommendations of the Office of
          inspector General Combined Assessment Program Review of the
          Southern Arizona VA Health Care System, Tucson Arizona.

       2. Attached are the facility actions taken as a result of these findings. I	f
          you have questions or require additional information, please contact
          Margaret C. Lumm, Clinical Director, Performance Management at
          (520) 629-1882.




VA OIG Office of Healthcare Inspections                                                        21
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
continued stay reviews are performed on at least 75 percent of patients in acute beds.

Concur

Target date for completion: Completed

Facility response: The SAVAHCS experienced turnover of two positions in our
Utilization Management staff which impacted our ability to conduct some clinical stay
reviews from January 2013 to August 2013. The Case Coordination Department filled
the vacant RN Reviewer positions in August and December 2013 which facilitated
enhanced monitoring of utilization management reviews. The percentage of completed
continued stay reviews, according to the VSSC Monthly Utilization Management Profile,
exceeded the benchmark of 75% since August 2013, and the Case Coordination
Department continues to conduct continued stay reviews for each hospital day.

                     Month                                            Result
 August 2013                                                          76.6%
 September 2013                                                       92.6%
 October 2013                                                         81.4%
 November 2013                                                        82.1%
 December 2013                                                        89.2%
 January 2014                                                         91.3%
 February 2014                                                        82.9%

Recommendation 2. We recommended that the Surgical Work Group meet monthly.

Concur

Target date for completion: Completed

Facility response: The facility established a Surgical Work Group which has met
monthly since October 2013 and will continue to meet monthly in the future.

Recommendation 3. We recommended that processes be strengthened to ensure that
all surgical deaths are reviewed.

Concur

Target date for completion: January 2014


VA OIG Office of Healthcare Inspections                                                        22
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Facility response: In January 2014, surgical death reviews were added as a standing
agenda item to the Surgical Work Group.

Recommendation 4. We recommended that processes be strengthened to ensure that
patient care areas in the CLC are clean and that compliance be monitored.

Concur

Target date for completion: Completed March 2014

Facility response: All of the patient bathroom floors in the occupied units of the CLC
were deep cleaned and a sealer applied. The hallway floors in the locked dementia
area were scrubbed and are now being scrubbed weekly until new flooring is installed.
Staff working in the area were provided refresher training emphasizing how to identify
and report damages. To enhance compliance with monitoring of Environment of Care
(EOC), a Standard Operating Procedure was developed outlining housekeeping
supervisory staff responsibilities.

Recommendation 5. We recommended that processes be strengthened to ensure that
walls in the CLC are repaired and maintained.

Concur

Target date for completion: Completed March 2014

Facility response: The walls in the CLC were repaired and repainted. New wall
protection was installed to accommodate the height of the new beds. Staff working in
the area were provided refresher training emphasizing how to identify and report
damage.

Recommendation 6. We recommended that processes be strengthened to ensure that
all workers who occasionally access the acute MH receive training on how to identify
and correct environmental hazards, proper use of the MH EOC Checklist, and VA’s
National Center for Patient Safety study of suicide on psychiatric units and that
compliance be monitored.

Concur

Target date for completion: May 2014

Facility response: The facility is enhancing the process for completing and recording
training in the Talent Management System on how to identify and correct environmental
hazards, proper use of the MH EOC Checklist and VA’s National Center for Patient
Safety study of suicide on psychiatric units. Compliance with these training and
education requirements is monitored by the Clinical Director, Education, Training and
Development.




VA OIG Office of Healthcare Inspections                                                        23
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Recommendation 7. We recommended that processes be strengthened to ensure that
patient learning assessments are conducted and documented and that compliance be
monitored.

Concur

Target date for completion: Completed March 2014

Facility response: The facility added a new category under the education tab in the
Electronic Health Record (EHR) called “New Medication Education.” This category
allows for any new medications to be included in the patient’s education plan. Under
this tab, a “Readiness to Learn” and a “Response to Teaching” section were included to
ensure learning assessments are conducted and documented. Education Assessment
compliance is monitored by the Patient Education Committee.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: Completed March 2014

Facility response: The facility added a new category under the education tab
(addressed in recommendation #7) called “New Medication Education.” A free text box
was added to the education assessment note for the clinician to address the patient’s
learning barriers and the accommodations made to address those barriers. Education
Assessment compliance is monitored by the Patient Education Committee.

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians identify post-discharge needs and include them in discharge planning.

Concur

Target date for completion: Completed March 2014

Facility response: The provider discharge order set in the EHR was revised to address
all post discharge needs, including prosthetics, and is integrated into the discharge
planning process. The Clinical Director, Care Coordination Department monitors
documentation of post discharge needs and inclusion in the discharge planning
process.




VA OIG Office of Healthcare Inspections                                                        24
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Recommendation 10. We recommended that processes be strengthened to ensure
that patients receive ordered aftercare services within the ordered/expected timeframe.

Concur

Target date for completion: Completed March 2014

Facility response: The facility developed a RN Case Coordination Note in the EHR
which identifies required aftercare service needs.     The Clinical Director, Care
Coordination Department monitors timeliness of orders/supplies/consults for aftercare
services.

Recommendation 11. We recommended that nursing managers monitor the staffing
methodology that was implemented in May 2013.

Concur

Target date for completion: Completed March 2014

Facility response: The nursing staffing methodology is monitored through a weekly
Clinical Nurse Manager meeting. Nursing leadership review and discuss nursing
staffing issues and barriers to include nursing hours per patient day (NHPPD). The
Associate Chief Nurse verifies compliance with the NHPPD staffing methodology on a
monthly basis and reports results to the Nursing Executive Board.

Recommendation 12. We recommended that all members of the facility and
unit-based expert panels receive the required training prior to the next annual staffing
plan reassessment.

Concur

Target date for completion: Completed March 2014

Facility response: All unit and expert panel members (42/42) completed the training for
the staffing plan reassessment that is projected to take place in May 2014.

Recommendation 13. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale at
discharge and that compliance be monitored.

Concur

Target date for completion: April 2014

Facility response: The facility is coordinating with the EHR vendor, DSS, INC, to revise
the discharge note to include a mandatory field on patient skin assessment and the
Braden risk scale. Nursing staff conduct monthly audits to ensure compliance with the




VA OIG Office of Healthcare Inspections                                                        25
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


documentation. Audit results are reported to the Wound Care Committee which reports
to the Quality Committee.

Recommendation 14. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: Completed March 2014

Facility response: A Pressure Ulcer chart audit guide was developed and presented to
all Nurse Managers who conduct monthly audits of the EHR to ensure that acute care
staff accurately document location, stage, risk scale score, and date pressure ulcer
acquired for all patients with pressure ulcers review. Nursing staff conduct monthly
audits to ensure compliance with the documentation. Audit results are reported to the
Wound Care Committee which reports to the Quality Committee.

Recommendation 15. We recommended that processes be strengthened to ensure
that acute care staff revise the prevention plans if risk levels change for patients at risk
for or with pressure ulcers and that compliance be monitored.

Concur

Target date for completion: Completed March 2014

Facility response: Nursing staff conduct monthly EHR audits of acute care patients to
ensure there is consistent documentation of a revised prevention plan if the risk level
changes. Audit results are reported to the Wound Care Committee which reports to the
Quality Committee.

Recommendation 16. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur

Target date for completion: Completed March 2014

Facility response: The Discharge Order set in the EHR was revised to include pressure
ulcer wound care issues; training; wound supplies; follow-up appointment; and
appropriate consults. Nursing staff conduct monthly audits to ensure compliance with
the documentation. Audit results are reported to the Wound Care Committee which
reports to the Quality Committee.




VA OIG Office of Healthcare Inspections                                                        26
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ


Recommendation 17. We recommended that processes be strengthened to ensure
that acute care staff provide and document pressure ulcer education for patients at risk
for and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: Completed March 2014

Facility response: To ensure patients at risk for and with pressure ulcers are educated,
RNs review and discuss pressure ulcer education with the patient and/or caregiver.
Once patient/caregiver understanding is acknowledged, both the RN and
patient/caregiver sign the discharge order as evidence of understanding, and a copy is
provided to the patient/caregiver. Nursing staff conduct monthly EHR audits to ensure
compliance with the documentation. Audit results are reported to the Wound Care
Committee which reports to the Quality Committee.

Recommendation 18. We recommended that processes be strengthened to ensure
that designated employees receive training on how to administer the pressure ulcer risk
scale and how to conduct a complete skin assessment and that compliance be
monitored.

Concur

Target date for completion: Completed March 2014

Facility response: The Talent Management System annual training module was revised
to include information on how to administer the Braden pressure ulcer risk scale and
how to conduct a complete skin assessment. Compliance with the training and
education requirements is monitored by the Clinical Director, Education, Training and
Development.

Recommendation 19. We recommended that processes be strengthened to ensure
that staff document weekly summaries of restorative nursing services in residents’
EHRs.

Concur

Target date for completion: Completed February 2014

Facility response: The local facility policy was revised to ensure staff document weekly
summaries of restorative nursing services in the residents’ EHR. The restorative
nursing summaries are documented in the EHR by the Unit RN/Restorative Coordinator
assignee. The weekly summaries include documentation of individualized goals,
ongoing functional performance and restorative recommendations.




VA OIG Office of Healthcare Inspections                                                        27
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Katrina Young, RN, MSHL, Team Leader
Contributors            Josephine Biley Andrion, RN, MHA
                        Elizabeth Burns, MSSW
                        Deborah Howard, RN, MSN
                        Sandra Khan, RN, BSN
                        Judy Montano, MS
                        Glen Pickens, RN, MHSM
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Derrick Hudson
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                        28
                              CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Southwest Health Care Network (10N18)
Director, Southern Arizona VA Health Care System (678/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Jeff Flake, John McCain
U.S. House of Representatives: Ron Barber, Raul Grijalva, Ann Kirkpatrick


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        29
                                     CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ
                                                                                             Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
    Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
    July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
   The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                             30
                                     CAP Review of the Southern Arizona VA Health Care System, Tucson, AZ



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    31
